Report No. D-2011-083                      July 14, 2011





      Additional Actions Can Further Improve the DoD 

            Suspension and Debarment Process

Additional Information
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing by
phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AIO                           Acquisition Integrity Office
DLA                           Defense Logistics Agency
DUNS                          Data Universal Numbering System
EPLS                          Excluded Parties List System
FAR                           Federal Acquisition Regulation
FPDS-NG                       Federal Procurement Data System-Next Generation
GSA                           General Services Administration
IG                            Inspector General
PLFA                          Primary Level Field Activity
S&D                           Suspension and Debarment
                                      INSPECTOR GENERAL 

                                     DEPARTMENT OF DEFENSE 

                                       400 ARMY NAVY DRIVE 

                                  ARLINGTON, VIRGINIA 22202-4704 



                                                                                    July 14, 2011

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
              ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
              DIRECTOR, DEFENSE LOGISTICS AGENCY
              NAVAL INSPECTOR GENERAL
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Additional Actions Can FUl'ther Improve the DoD Suspension and Debannent
         Process (Report No. D-2011-083)

We are providing this report for your information and use. The Services and the Defense
Logistics Agency had an effective suspension and debarment process, which helps to ensme that
the Govemment is doing business only with responsible contractors. The Defense Logistics
Agency contracting officers were referring poorly performing contractors for suspensions and
debarments at a greater rate than the Services' contracting officers. As a result of the Services'
contracting officers potentially not referring as many poorly performing contractors to the
suspension and debarment officials for suspension or debarment, poorly performing contractors
may still be receiving Federal contracts. We considered management comments on a draft ofthe
repoli in preparing the final repolt.

Comments from the Director, Defense Procurement and Acquisition Policy, on the draft of this
report conformed to the requirements of DoD Directive 7650.3 and left no u1ll'esolved issues.
Therefore, we do not require any additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 604­
9071 (DSN 664-9071).




                                          ~~f'BOJ::
                                             Deputy Assistant Inspector General
                                             Acquisition and Contract Management
Report No. D-2011-083 (Project No. D2010-D000CG-0177.000)                    July 14, 2011


               Results in Brief: Additional Actions Can
               Further Improve the DoD Suspension and
               Debarment Process
What We Did                                            performance as did the DLA S&D official. The
                                                       Services’ S&D officials issued S&D actions
We reviewed documentation on the timeliness of
                                                       based on poor performance for 8 of 87 S&D case
DoD suspension and debarment (S&D) decisions
                                                       files reviewed. According to the Services’
and entering S&D information into the Excluded
                                                       contracting personnel interviewed, they had little
Parties List System (EPLS). We also reviewed
                                                       to no involvement with suspending and
the S&D process for the Services and the
                                                       debarring contractors. The DLA S&D official
Defense Logistics Agency (DLA) to determine
                                                       issued S&D actions based on poor performance
whether contracting officers referred poorly
                                                       for 24 of 39 S&D case files reviewed. As a
performing contractors to be suspended or
                                                       result of the Services’ contracting officers not
debarred, whether contracting officers checked
                                                       referring as many poorly performing contractors,
the EPLS before making contract awards, and
                                                       these contractors may still be receiving contracts.
whether contractors received contract awards
                                                       The Services’ and DLA contracting personnel
after being listed in the EPLS. We reviewed a
                                                       awarded 17 contract actions, valued at about
nonstatistical sample of 126 S&D contractor case
                                                       $600,000, to 8 suspended or debarred contractors
files from the Services and DLA, which included
                                                       after the contractors were listed in the EPLS.
409 contractors for FYs 2007 through 2009.

What We Found                                          What We Recommend
                                                       We recommend that the Director, Defense
The S&D decisionmaking process and data entry
                                                       Procurement and Acquisition Policy:
into EPLS appeared to be done in a timely
                                                       •	 develop a working group to review and
manner. The Services and DLA processed S&D
                                                          improve the S&D process for referring
cases differently; therefore, we could not
                                                          poorly performing contractors for potential
determine comparable portions of their S&D
                                                          suspensions or debarments,
decision-making process. We were able to
measure different portions of the S&D decision-        •	 develop a training program to inform
making processes for timeliness for the Army,             contracting personnel of the S&D program
Navy, and DLA. The Army averaged about                    and the process for referring poorly
2 days, the Navy averaged about 4 days, and               performing contractors, and
DLA about 11 days for the S&D official to make         •	 conduct training for contracting personnel on
S&D decisions using their respective processes,           checking the EPLS before awarding
which included different start dates for each             contracts.
Component. The Air Force did not document
the submission of the S&D case file to the S&D         Management Comments and
official and timeliness could not be measured.         Our Response
Army, Navy, Air Force, and DLA S&D                     The Director, Defense Procurement and
personnel averaged 1.7 working days between            Acquisition Policy, agreed with all three of our
the date of the notice of suspension, debarment,       recommendations and will establish a working
or proposed debarment and the creation date for        group to review the S&D process and develop a
the EPLS account.                                      contracting personnel training program. We
The Services’ S&D officials did not suspend or         consider the Director’s comments to be
debar as many contractors based on poor                responsive. No further comments are required.
                                                   i
Report No. D-2011-083 (Project No. D2010-D000CG-0177.000)          July 14, 2011

Recommendations Table

         Management                 Recommendations         No Additional Comments
                                   Requiring Comment                  Required
Director of Defense Procurement                             B.1, B.2, and B.3
and Acquisition Policy




                                          ii
Table of Contents 


Introduction	                                                                     1


      Audit Objectives                                                            1

      Background on Suspensions and Debarments                                    1

      Interagency Suspension and Debarment Committee                              5

      Suspension and Debarment Cases Reviewed                                     5

      Review of Internal Controls                                                 6


Finding A. Time Frames for S&D Officials’ Decisions to Suspend or Debar 

Contractors and Their Entry Into the EPLS                                         7


      The S&D Decisionmaking Processes for the Services and DLA Varied            7

      The Services’ and DLA S&D Officials Entered Information Into 

             the EPLS in a Timely Manner                                         12 

      Summary                                                                    13     


Finding B. Contracting Officer Involvement in the S&D Process Could Be 

Improved                                                                         14


      Contracting Officer Involvement With the S&D Process: Potential for More 

             Fact-Based Suspensions and Debarments                               14 

      The Services’ and DLA Contracting Officers Checked the EPLS Before 

             Awarding Contracts                                                  17 

      Contracting Officers Awarded Contracts to Suspended or Debarred

             Contractors                                                         18 

      Recommendations, Management Comments, and Our Response                     20 


Appendices

      A.	 Scope and Methodology                                                  22 

            Prior Coverage                                                       26 

      B. Suspended or Debarred Contractors That Received Awards 	                28


Management Comments

      Defense Procurement and Acquisition Policy 	                               31 

Introduction
Audit Objectives
We reviewed the timeliness of DoD suspension and debarment (S&D) decisions and
entering S&D information into the Excluded Parties List System (EPLS). Specifically,
we determined how long it took for the suspension or debarment to go into effect once a
decision was made.

Additionally, we expanded our scope to review the S&D process for the Services and
Defense Logistics Agency (DLA) to determine whether contracting officers referred
poorly performing contractors to be suspended or debarred, whether contracting officers
checked the EPLS before making contract awards, and whether contractors received
contract awards after being listed in the EPLS. See Appendix A for a discussion of our
scope and methodology and prior coverage.

Background on Suspensions and Debarments
The purpose of S&D is to ensure agencies solicit offers from, award contracts to, and
consent to subcontracts with responsible contractors. S&D officials may suspend, debar,
or propose debarment, to severely restrict the contractors ability to contract with the
Government by placing them on the EPLS or they may enter into an administrative
agreement with a contractor to subject them to rigorous oversight. S&D officials review
S&D case files based on criminal and civil actions against contractors for fraud and other
misconduct (judicial-based cases) or on negative contractor actions not subject to legal
action such as poor performance (fact-based cases). Agencies cannot solicit offers from,
award contracts to, or consent to subcontracts with contractors that are suspended,
debarred, or proposed for debarment unless the agency head determines that there is a
compelling reason for such action. Agencies may continue contracts or subcontracts in
place at the time the contractor was suspended, debarred, or proposed for debarment.

The Army, Navy,1 Air Force, and DLA each have their own S&D official and procedures
to supplement the S&D authorities in the Federal Acquisition Regulation (FAR) Subpart
9.4, “Debarment, Suspension, and Ineligibility,” and Defense Federal Acquisition
Regulation Supplement Subpart 209.4, “Debarment, Suspension, and Ineligibility.” DoD
S&D personnel work to coordinate fraud remedies in accordance with DoD Instruction
7050.05, “Coordination of Remedies for Fraud and Corruption Related to Procurement
Activities,” June 4, 2008. DoD Instruction 7050.05 states that “each DoD Component
shall monitor, from its inception, all significant investigations of fraud or corruption
related to procurement activities affecting its organization.” DoD Components monitor
the investigations of fraud or corruption to ensure that all possible criminal, civil,
contractual, and administrative remedies are communicated to procurement and
command personnel and that the appropriate remedies are pursued promptly.

1
 The Navy S&D official is the S&D official for the Department of the Navy, including the Marine Corps,
but will be referred to as the Navy S&D official in this report.


                                                   1

Suspension
       An S&D official suspends contractors to exclude them from receiving contracts
while waiting for the conclusion of an investigation and any ensuing legal proceedings.
For an S&D official to suspend a contractor, the contractor does not have to be indicted
or convicted of a crime. An S&D official may also suspend a contractor upon adequate
evidence of any other cause so serious or compelling a nature that it affects the present
responsibility of a contractor. FAR 9.407-1, “General,” states that:
                  Suspension is a serious action to be imposed on the basis of adequate
                  evidence, pending the completion of investigation or legal proceedings,
                  when it has been determined that immediate action is necessary to
                  protect the Government’s interest.

It also states that:

                  Suspension constitutes suspension of all divisions or organizational
                  elements of the contractor, unless the decision is limited by its terms to
                  specific divisions, organizational elements, or commodities. The
                  suspending official may extend the suspension decision to include any
                  affiliates2 of the contractor if they are-
                  (1) Specifically named; and
                  (2) Given written notice of the suspension and an opportunity to
                  respond.

A contractor can, within 30 calendar days after receipt of the notice of suspension, submit
information and argument in opposition to the suspension. The EPLS includes suspended
contractors.

Proposed Debarment
        An S&D official proposes contractors for debarment to exclude them from
receiving contracts. An S&D official may propose debarment based either on a
conviction, civil judgment, or preponderance of the evidence establishing cause for
debarment. A contractor can, within 30 calendar days after receipt of the notice of
proposed debarment, submit information and argument in opposition to the proposed
debarment and request a hearing with the S&D official before a final debarment decision.
A proposed debarment has the same effect as a debarment under FAR 9.405, “Effect of
Listing.” The EPLS includes contractors proposed for debarment.

Debarment
        An S&D official debars contractors to exclude them from receiving contracts for a
period of time proportionate with the seriousness of the offense. FAR 9.406-4, “Period
of Debarment,” states that “generally, debarment should not exceed 3 years.” An S&D
official may debar a contractor based on a conviction or civil judgment for specified
crimes and offenses. An S&D official may also debar contractors based on a
preponderance of the evidence for specified conduct, including willful or repeated

2
 Affiliates are organizations or individuals who are directly related to the primary case file, either one
controls or has the power to control the other or a third party has the power to control both.


                                                       2

violations of the terms of a Government contract and for any other cause of so serious or
compelling a nature that it affects the present responsibility of the contractor.
FAR 9.406-1, “General,” states that:

               Debarment constitutes debarment of all divisions or other
               organizational elements of the contractor, unless the debarment
               decision is limited by its terms to specific divisions, organizational
               elements, or commodities. The debarring official may extend the
               debarment decision to include any affiliates of the contractor if they
               are­
               (1) Specifically named; and
               (2) Given written notice of the proposed debarment and an opportunity
               to respond.

The EPLS includes debarred contractors.

Administrative Agreements
        An S&D official can enter into an administrative agreement with a contractor in
lieu of suspending or debarring them when they are convinced that the Government’s
interests can be protected without suspension or debarment. An administrative agreement
usually includes a requirement for a code of ethics, a training and compliance program,
and a mechanism for reporting misconduct. Using an administrative agreement allows
the S&D official rigorous oversight of the contractor and the ability to monitor and
scrutinize contractor operations. In addition, a contractor violating the terms of an
agreement provides an independent cause for debarment.

Judicial-Based Suspensions and Debarments
        Judicial-based suspensions and debarments result from a number of crimes
including fraud relating to a Government contract; a number of specific offenses,
regardless of the existence of a public contract; and any other offense indicating a lack of
business integrity that seriously affects a contractor’s present responsibility. An S&D
official is authorized by FAR 9.407-2, “Causes for Suspension,” to suspend a contractor
suspected of fraud or a criminal offense in connection with obtaining, attempting to
obtain, or performing a public contract or subcontract if there is adequate evidence.
Contractors committing mail fraud or interstate transportation of stolen property are
examples of judicial-based cases.

Fact-Based Suspensions and Debarments
         A contractor’s misconduct related to the performance of Government contracts is
a justification for a fact-based suspension or debarment. An S&D official is authorized
by FAR 9.406-2, “Causes for Debarment,” to debar a contractor for “willful failure to
perform in accordance with the terms of one or more contracts; or a history of failure to
perform, or of unsatisfactory performance of, one or more contracts.” An S&D official
may also suspend or debar contractors for the commission of any other offense
indicating lack of business integrity or business honesty that seriously and directly affects
the present responsibility. A contractor violating the Drug-Free Workplace Act is an
example of a fact-based case.


                                                 3

Compelling Needs
         FAR 9.405 states that:

                  Contractors debarred, suspended, or proposed for debarment are
                  excluded from receiving contracts, and agencies shall not solicit offers
                  from, award contracts to, or consent to subcontracts with these
                  contractors, unless the agency head determines that there is a
                  compelling reason for such action.

If an agency head determines that there is a compelling need to do business with an
excluded contractor, Defense Federal Acquisition Regulation 209.405 requires written
notice of the determination to the General Services Administration (GSA), Office of
Acquisition Policy.

Continuation of Current Contracts
        Agencies are permitted under FAR 9.405-1, “Continuation of Current Contracts,”
to continue contracts or subcontracts in place at the time the contractor was suspended,
debarred, or proposed for debarment unless the agency head instructs otherwise.
According to the FAR 9.405-1, ordering activities must not place orders or add new
work, including exercising options to extend current contracts without the agency head
approval for contractors who are suspended, debarred, or proposed for debarment.

Excluded Parties List System
        Agencies identify in the EPLS those parties excluded by a suspension, debarment,
or proposed debarment from receiving Federal contracts or certain subcontracts and from
certain types of Federal financial and nonfinancial assistance and benefits. The EPLS
database is available at http://epls.gov, as required by FAR 9.404, “Excluded Parties List
System.” GSA operates the web-based EPLS and provides technical assistance to
Federal agencies in the use of the EPLS.

FAR 9.404, states that the EPLS includes the:

         1.	 Names and addresses of all contractors debarred, suspended, proposed for
             debarment, declared ineligible, or excluded or disqualified under the
                                                                    3
             nonprocurement common rule, with cross-references when more than one
             name is involved in a single action;
         2.	 Name of the agency or other authority taking the action;
         3.	 Cause for the action or other statutory or regulatory authority;
         4.	 Effect of the action;
         5.	 Termination date for each listing;
         6.	 Data Universal Numbering System (DUNS) No.;
         7.	 Social Security Number, Employer Identification Number, or other
             Taxpayer identification Number, if available; and
         8.	 Name and telephone number of the agency point of contact for the action.

3
  EPLS identifies the relationship of an exclusion involving more than one individual and/or firm by linking
and marking one record as the primary listing and the other(s) as a cross-reference to the primary listing. A
record marked as the primary listing will list all parties associated with the exclusion. A record marked as
a cross-reference will identify its association to a related primary record.


                                                     4

Contracting officers are required under FAR 9.405 to review the EPLS after the opening
of bids or receipt of proposals. Contracting officers must again review the EPLS
immediately before award to ensure that no award is made to a contractor listed in the
EPLS.

Interagency Suspension and Debarment Committee
Exec. Order No. 12,549, 51 Fed. Reg. 6370 (1986), directed the establishment of the
Interagency Suspension and Debarment Committee. The Committee includes about
50 member agencies from the Services, DLA, and many other Federal agencies. The
Committee serves as a forum for agencies to consider and discuss current S&D-related
issues. Committee members meet monthly to discuss topics of interest in Government-
wide S&D including assisting GSA in the administration of the EPLS and the
incorporation of administrative agreements in the Federal Awardee Performance Integrity
and Information System. The Committee monitors participation in the Government-wide
S&D system and ensures Executive departments and agencies issue regulations with
Government-wide criteria and minimum due process procedures when suspending or
debarring contractors.

Suspension and Debarment Cases Reviewed
We reviewed a nonstatistical sample of 126 S&D contractor case files, which included
409 contractors, affiliates, and imputed parties4 for FYs 2007 through 2009 from the
Services and DLA. As of March 2, 2010, 1,346 contractors, affiliates, and imputed
parties were listed as suspended, debarred, or proposed for debarment in the EPLS.
Some of the contractors we reviewed are no longer suspended or debarred. Table 1
shows the number of S&D contractor case files and the number of contractors including
affiliates and imputed parties we reviewed for the Services and DLA.

       Table 1. Nonstatistical Sample of S&D Contractor Cases Reviewed for 

                               FYs 2007 through 2009* 

    DoD            Cases          Fact-Based     Judicial-      Contractors**
Component                            Cases      Based Cases
Army                 27                4            23                72
Navy                 32                6            26                64
Air Force            28               12            16               137
DLA                  39               30             9               136
Total               126               52            74               409
*
 The audit team reviewed a nonstatistical sample of S&D contractor case files, and the sample does not

generalize to the universe; therefore, audit results should not be projected across all suspended or debarred 

contractors.

**
  Includes affiliates and imputed parties. 



4
  An imputed party is a contractor being held accountable for the actions of an associated individual who is
acting on behalf of the contractor; an individual who participated in, knew of, or had reason to know of an
associated contractor’s actions being held accountable for the actions of that contractor; or contractors
being held responsible for the actions of other contractors that they are participating in joint ventures with
for conduct that occurred on the behalf of the joint venture.


                                                      5

Review of Internal Controls
The Services and DLA’s internal controls over their S&D programs were effective as they
applied to the audit objectives.




                                            6

Finding A. Time Frames for S&D Officials’
Decisions to Suspend or Debar Contractors
and Their Entry Into the EPLS
The Services’ and DLA S&D personnel were required to follow DoD criteria, which
require prompt reporting and timely decisionmaking, and helped to ensure that the
Government is doing business only with responsible contractors. However, DoD criteria
do not establish a specific time frame for S&D decisions, and the Services and DLA were
not required to comply with a specific time frame for making S&D decisions. Therefore,
we were unable to establish a consistent start date to document the entire S&D process.

However, we were able to measure different portions of the S&D decisionmaking
processes for timeliness for the Army, Navy, and DLA.5 The Army averaged about
2 days, the Navy averaged about 4 days, and DLA averaged about 11 days for the S&D
official to make S&D decisions using their respective processes, which included different
start dates for each Component. Also, according to Air Force personnel, the Air Force
did not document the submission of the S&D case file to the S&D official, and timeliness
could not be measured.

Army, Navy, Air Force, and DLA S&D personnel averaged 1.7 working days between
the date of the notice of suspension, debarment, or proposed debarment and the date the
EPLS account was created for the 126 S&D case files reviewed.

The S&D Decisionmaking Processes for the Services
and DLA Varied
The Services and DLA processed their S&D cases differently; therefore, we could not
determine comparable portions of their S&D decisionmaking process for timeliness.
Army S&D personnel used unofficial tracking sheets to process S&D cases at the
Procurement Fraud Branch that show when a case file was submitted to the S&D official.
Army S&D personnel provided tracking sheets for our review for 22 of 27 S&D case
files. The Army S&D official averaged about 2 days to make a decision once the case
file was received. Navy S&D personnel used a memorandum prepared internally by an
attorney recommending S&D action to process S&D cases at the Navy Office of the
General Counsel’s Acquisition Integrity Office (AIO). Navy S&D personnel provided
the memorandum recommending S&D action for our review for 30 of 32 S&D case files.
The Navy S&D official averaged about 4 days to make a decision once the memorandum
was received. According to Air Force personnel, the Air Force does not document the
submission of S&D case files to the Air Force S&D official and timeliness could not be




5
  The Army, Navy, and DLA did not provide documentation of timeliness for all of the S&D case files
reviewed.


                                                   7

measured. DLA S&D personnel at the Primary Level Field Activity 6 (PLFA) used a
recommendation memorandum to refer S&D cases to DLA Headquarters. DLA S&D
personnel provided recommendation memoranda for review for 27 of 39 S&D case files.
The DLA S&D official averaged about 11 days to make a decision once the
recommendation to suspend or debar a contactor was sent from the PLFA. This time
frame included the time it took to mail documentation from the PLFA to DLA
Headquarters and the time it took to process the case file at DLA Headquarters before it
was submitted to the DLA S&D official.

The Services and DLA differed in the way they processed S&D cases. The Services used
a centralized approach for S&D. The Army Procurement Fraud Branch monitored and
coordinated cases of fraud. The Navy Office of the General Counsel’s AIO monitored
and ensured coordination of all acquisition integrity matters. The Air Force Deputy
Counsel (Contractor Responsibility) was responsible for the Air Force’s procurement
fraud remedies program and exercised the suspension and debarment authority. DLA
S&D personnel had a decentralized approach and received most of their referrals as
complete packages from PLFA contracting personnel.

Army S&D Timeliness and Process
        The Army S&D official averaged about 2 days to make a decision once the case
file was received. Army S&D personnel used unofficial tracking sheets to process S&D
cases at the Procurement Fraud Branch that show when a case file was submitted to the
S&D official. Army S&D personnel provided the tracking sheets for our review for 22 of
27 S&D case files. Army personnel were required to follow the Army Federal
Acquisition Regulation Supplement 5109.406, “Contractor Qualification,” which
describes prompt reporting of S&D cases as essential but does not outline a specific time
frame for the S&D decisionmaking process.

The Procurement Fraud Branch was the single, centralized organization in the Army that
monitored and coordinated criminal, civil, contractual, and administrative remedies for
significant cases of fraud or corruption within the Army. The Procurement Fraud Branch
serves and protects our soldiers, the taxpayer, and the overall integrity of the Government
procurement process and the Army’s S&D Program. In addition to the S&D official
located in Arlington, Virginia, the Army was the only Service with regional S&D
officials, one in Korea and one in Germany. The Procurement Fraud Branch’s mission is
to:

    •	 process, coordinate, and monitor all criminal, civil, contractual, and
       administrative actions involving contract fraud or corruption perpetrated against
       the Department of the Army;
    •	 support the Army and regional S&D officials’ efforts and execute S&D officials’
       decisions on all S&D actions;

6
 Primary Level Field Activities included DLA Land and Maritime in Columbus, Ohio; DLA Aviation in
Richmond, Virginia; DLA Troop Support in Philadelphia, Pennsylvania; DLA Energy at Fort Belvoir,
Virginia; DLA Distribution in New Cumberland, Pennsylvania; and DLA Disposition Services in Battle
Creek, Michigan.


                                                 8

    •	 report contractors suspended or debarred to GSA; and
    •	 assist the Department of Justice in all criminal and civil litigation matters 

        concerning fraud-related cases within the Department of the Army.


In addition to the Procurement Fraud Branch, each Army installation had a designated
Procurement Fraud Advisor who serves as a local point of contact for procurement fraud
matters. According to personnel within the Procurement Fraud Branch, most S&D cases
originated from the Army Criminal Investigation Division, and they rarely received S&D
cases directly from contracting personnel. The Army S&D official determined whether
to suspend or debar a contractor and signed the decision memorandum. Procurement
Fraud Branch personnel entered the information into the EPLS.

Navy S&D Timeliness and Process
        The Navy S&D official averaged about 4 days to make a decision once the
memorandum recommending S&D action was received. Navy S&D personnel used a
memorandum prepared internally by an attorney recommending S&D action to process
S&D cases at the Navy Office of the General Counsel’s AIO. Navy S&D personnel
provided the memoranda recommending S&D action for our review for 30 of 32 S&D
case files. Navy personnel were required to follow Navy Marine Corps Acquisition
Regulation Supplement Subpart 5209.4, “Debarment Suspension and Ineligibility,”
which requires all S&D matters to be referred to the Assistant General Counsel but does
not outline a specific time frame for the S&D decisionmaking process.

The Office of the General Counsel’s AIO was the Navy’s centralized organization for
acquisition integrity matters, and the Assistant General Counsel (Acquisition Integrity)
was the Navy’s designated S&D official. The AIO’s mission is to:

   •	 provide a Navy-wide program that will deter acquisition fraud to the maximum
      extent possible,
   •	 detect acquisition fraud when and where it occurs,
   •	 protect the Department of the Navy from the effects of acquisition fraud,
   •	 take appropriate action against those who commit acquisition fraud, and
   •	 recover fraudulent gains.

Attorneys, a senior Naval Criminal Investigative Service agent, and a senior Naval Audit
Service auditor are part of the AIO team. According to Navy S&D personnel, about
95 percent of S&D cases originated from the Naval Criminal Investigative Service, and
S&D cases may be initiated from the contracting officer through the Naval Criminal
Investigative Service, but the AIO usually does not receive S&D cases directly from
contracting officers. The AIO did not receive complete referral packages or S&D
recommendations from contracting officers; however, AIO personnel received the
majority of S&D cases from the Naval Criminal Investigative Service. The Navy S&D
official determined whether to suspend or debar a contractor and signed the decision
memorandum. Navy Office of General Counsel personnel entered the information into
the EPLS.



                                              9

The Navy S&D official stated that when the AIO was created, AIO personnel established
procurement fraud working groups at Echelon 2 commands composed of a representative
from contracts, the Office of Inspector General (IG), the Naval Criminal Investigative
Service, the Command Office of Counsel, and an AIO attorney. According to the Navy
S&D official, the procurement fraud working groups ensure coordination and
transparency in all acquisition fraud matters at those commands. She also stated that the
groups meet quarterly to discuss the latest developments in acquisition fraud and the
status of cases and to facilitate communication between the contracting community, the
AIO, and its partners who investigate or audit fraud allegations. The Navy S&D official
stated that the procurement fraud working group concept has expanded to lower echelon
activities.

Air Force S&D Timeliness and Process
        According to Air Force personnel, the Air Force does not document the
submission of the S&D case file to the S&D official, but the S&D official usually signs
the decision documents within 2 days of submission by the staff. Air Force personnel
stated that the decision memorandum submitted to the S&D official fully establishes the
basis for the S&D action and that it would be redundant to prepare a separate
recommendation memorandum to be submitted to the S&D official. Air Force personnel
were required to follow Air Force Federal Acquisition Regulation Supplement Part 5309,
“Contractor Qualifications,” which requires prompt notification of legal counsel of
potential S&D cases but does not outline a specific time frame for the S&D
decisionmaking process.

The Deputy General Counsel (Contractor Responsibility) was responsible for the Air
Force Procurement Fraud Remedies Program and was the designated S&D official for the
Air Force. The Deputy General Counsel (Contractor Responsibility) was a full-time
S&D official and was supported by a staff that includes an Assistant Deputy General
Counsel with an acquisition background and the Director of the Air Force Procurement
Fraud Remedies Office. The S&D official ensures that the Air Force does not do
business with non-responsible contractors and subcontractors. The Deputy General
Counsel’s (Contractor Responsibility) mission is to:

   •   serve as the Air Force’s S&D authority,
   •   coordinate procurement fraud remedies for Air Force contracts worldwide, and
   •   promote contractor ethics in the United States and globally.

The Procurement Fraud Team ensures that all appropriate fraud remedies are considered
and implemented, works to prevent fraud before it happens, educates Air Force personnel
on preventing and remedying fraud, coordinates with the Department of Justice, and
encourages contractors to prevent fraud. According to Air Force S&D personnel, the Air
Force’s program relies on frequent coordination among procurement fraud stakeholders
and the head of Air Force contracting and her staff meet regularly with the Air Force
S&D official and the Director of Procurement Fraud Remedies. Air Force S&D
personnel stated that the Air Force’s major buying centers also coordinate several times a
year at procurement fraud working group meetings.


                                           10

According to Air Force S&D personnel, the majority of the Air Force's S&D cases
originated from the Air Force's monitoring of significant procurement fraud and
corruption cases involving Air Force contracts, and they did not receive referral packages
directly from contracting officers. They built their S&D cases from the information they
were given by the Air Force Office of Special Investigations or any other sources. The
Office of Fraud Remedies reviewed case status reports and/or case remedies reports to
determine whether the Air Force was interested and whether they should pursue the case
for S&D action. The Office of Fraud Remedies also received information from the
Department of Justice. The Air Force S&D official determined whether to suspend or
debar a contractor and signed the decision memorandum. The Deputy General Counsel
(Contractor Responsibility) personnel entered the information into the EPLS.

Defense Logistics Agency S&D Timeliness and Process
        The DLA S&D official averaged about 11 days7 between the time the PLFA sent
the recommendation to suspend or debar the contractor and the date the S&D official
made a decision by signing the notice of suspension or debarment to the contractor. This
time frame included the time it took to mail documentation from the PLFA to DLA
Headquarters and the time it took to process the case file at DLA Headquarters before it
was submitted to the DLA S&D official. DLA S&D personnel provided the
memorandum from the PLFA recommending S&D action for our review for 27 of
39 S&D case files. DLA S&D personnel were required to follow DLA Directive
Subpart 9.406-90, “Procedures for Debarments Based on Poor Performance,” which
requires timely and effective action on referrals of S&D cases but does not outline a
specific time frame for the decision process to suspend or debar contractors.

DLA had a decentralized process for pursuing S&D cases against its contractors that is
generally coordinated with one of the PLFA sites. The DLA Special Assistant for
Contracting Integrity, Office of General Counsel, had S&D authority for DLA. The
Special Assistant for Contracting Integrity also had S&D authority over contractors who
buy Federal property from the DLA Disposition Services.8

DLA PLFAs were responsible for the majority of S&D referrals. DLA PLFA legal
offices had attorneys specifically assigned to work fraud cases. Local fraud counsels
determined whether they had reasonable grounds to believe wrongdoing had occurred. If
so, they referred the case to the Defense Criminal Investigative Service. The local fraud
counsels coordinated actions and initiatives with an attorney at the DLA Headquarters
Office of General Counsel who managed the fraud program for the agency.

The DLA contracting officer recommended through the PLFA chain of command to the
DLA Headquarters Office of General Counsel that a contractor be suspended or debarred
from Government contracting because of poor performance. Defense Logistics
Acquisition Directive Subpart 9.406-90 describes the process for excluding contractors

7
 The average of about 11 days includes both workdays and weekends. 

8
 During the audit, DLA renamed its component entities. Defense Reutilization and Marketing Services is 

now DLA Disposition Services. 



                                                  11

based on poor performance. Defense Logistics Acquisition Directive Subpart 9.406-90
states that “the contracting officer must initiate timely, effective action to ensure that the
Government’s business interests are protected when a contractor’s action or inaction
threatens successful contract performance.” The contracting officer must be able to
document the contractor’s poor performance before referring a contractor to local counsel
for preparation of a debarment report. The contracting officer must also be able to
illustrate why the only reasonable alternative available left to the Government is
debarment. The PLFA Commander reviews, signs, and forwards each recommendation
to DLA Headquarters Office of the General Counsel. The DLA Special Assistant for
Contracting Integrity evaluates the recommendation to determine whether S&D action
was warranted. If the Special Assistant for Contracting takes S&D action, it becomes a
permanent part of the administrative record that is provided to the contractor. DLA
Headquarters Office of General Counsel personnel entered the information into the
EPLS.

The Services’ and DLA S&D Officials Entered
Information Into the EPLS in a Timely Manner
The Services’ and DLA S&D personnel entered information into the EPLS in a timely
manner once the decision to suspend or debar the contractor had been made. The
Services’ and DLA S&D personnel, on average, entered contractors into the EPLS in
about 1.7 working days after the notice of suspension, debarment, or proposed debarment
was sent to the contractor for the 126 case files we reviewed. The Services’ and DLA
                               S&D personnel are required by FAR 9.404 to enter the
   The Services and DLA
                               EPLS information within 5 working days after the action
       S&D personnel
                               becomes effective. The Services and DLA averaged less
    entered information
                               than the 5-working-day limit prescribed in FAR 9.404.
     into the EPLS in a
                               The Services’ and DLA S&D personnel took longer than
  timely manner once the
                               the 5-working-day limit for 8 of the 126 case files we
   decision to suspend or
                               reviewed. Table 2 shows the average number of working
    debar the contractor
                               days between the notice of suspension, debarment, or
      had been made.
                               proposed debarment and the EPLS account creation date.




                                             12

Table 2. Average Number of Days Between Notice and EPLS Creation
             DoD Component             Average Number of Working Days
                                 Between Notice and EPLS Creation Date
               Army                                   2.7*
               Navy                                   1.6
             Air Force                                 .5
               DLA                                    2.1
       The Services and DLA                           1.7
    *
     We excluded one entry from the calculation of the average number of days between the notice and
    the EPLS account creation date for the Army because the contractor was not listed in the EPLS
    despite documentation provided by the Army showing an EPLS account was created the same day the
    notice was sent to the contractor. Army personnel created a new account into EPLS the same day we
    notified them of the missing entry.

Summary
The Services’ and DLA S&D personnel were required to follow DoD criteria, which
require prompt reporting and timely decisionmaking, and helped to ensure that the
Government is doing business only with responsible contractors. The Services and DLA
processed their S&D cases differently; therefore, we could not determine comparable
portions of their S&D decisionmaking process for timeliness. However, we were able to
measure different portions of the S&D decisionmaking process for timeliness for the
Army, Navy, and DLA. The Army averaged about 2 days, the Navy averaged about
4 days, and DLA averaged about 11 days for the S&D official to make S&D decisions
using their respective processes. According to Air Force personnel, the Air Force does
not document the submission of the S&D case file to the Air Force S&D official and
timeliness could not be measured. The Services’ and DLA S&D officials were required
to follow FAR 9.404 and, on average, entered contractors into the EPLS in about
1.7 working days after the notices of suspension, debarment, or proposed debarment were
sent to the contractor for 126 S&D case files reviewed.




                                                13

Finding B. Contracting Officer Involvement in
the S&D Process Could Be Improved
The Services’ S&D officials did not suspend or debar as many contractors based on poor
performance as did the DLA S&D official for the 126 S&D case files reviewed.9 The
Services’ S&D officials issued S&D actions based on poor performance for 8 of 87 S&D
case files reviewed. The DLA S&D official issued S&D actions based on poor
performance for 24 of 39 S&D case files reviewed. DLA contracting personnel stated
that they referred poorly performing Government contractors for S&D. According to the
Services’ contracting personnel, the contracting officers had little to no involvement in
suspending and debarring Government contractors. As a result of the Services’
contracting officers potentially not referring as many poorly performing contractors to the
S&D officials for suspension or debarment, poorly performing contractors may still be
receiving Federal contracts.

In addition, the contracting personnel from the Services and DLA stated that they
checked the EPLS to determine whether contractors were listed as suspended or debarred
before awarding contracts. However, the Services’ and DLA contracting officers
awarded 17 contract actions,10 valued at about $600,000, to 8 of the 409 S&D
contractors, affiliates, and imputed parties reviewed, after they were listed in the EPLS.
Contracting officers awarded contracts to suspended and debarred contractors for a
variety of reasons, including typographical or input errors when searching the EPLS
before awarding contracts.

Contracting Officer Involvement With the S&D Process:
Potential for More Fact-Based Suspensions and
Debarments
The DLA S&D official issued more fact-based S&D actions than the Services’ S&D
officials. DLA contracting officers referred poorly performing contractors to be
suspended and debarred while the Services’ contracting personnel stated that they had
little to no involvement with the S&D process. The way the Services’ and DLA
contracting officers handled poorly performing contractors varied. According to the
Services’ contracting personnel we interviewed, they took corrective actions at the local
field level instead of referring a contractor for potential suspension or debarment. Based
on the interviews we conducted with contracting personnel at one contracting activity for
each of the Services,11 we determined that although contracting personnel were checking
the EPLS to see whether contractors were suspended or debarred before awarding

9
  The audit team reviewed a nonstatistical sample of S&D contractor case files, and the sample does not
generalize to the universe; therefore, audit results should not be projected across all suspended or debarred
contractors.
10
   In addition, we did not review 36 delivery orders issued on previously awarded contracts.
11
   The Services contracting sites we visited include Rock Island Arsenal, Illinois; Fleet and Industrial
Supply Center, Norfolk, Virginia; and Air Force District Washington, Bolling Air Force Base, Washington
D.C.


                                                     14

contracts, checking the EPLS was generally their only involvement in the S&D process.
In contrast, DLA contracting personnel stated that they were actively involved with the
S&D process and referred poorly performing contractors to be potentially suspended or
debarred.

For the 126 S&D case files reviewed, the DLA S&D official issued a higher percentage
of fact-based S&D actions because of contractor poor performance than the Services’
S&D officials issued. Table 3 shows the comparison of fact-based suspensions and
debarments for poor performance between the Services and DLA for the actions we
reviewed.

               Table 3. Poor Performance Fact-Based Action Comparison*
                                                       Total Number of
                                  Fact-Based Actions
                                                           Actions
               DoD Component        Based on Poor
                                                        (Fact-Based &
                                     Performance
                                                       Judicial-Based)
              Army                        2                   27
              Navy                        2                   32
              Air Force                   4                   28

              Total of Services                 8                           87
              DLA                               24                          39
          *
          The audit team reviewed a nonstatistical sample of 126 S&D case files, and the sample does
          not generalize to the universe; therefore, audit results should not be projected across all
          suspended or debarred contractors.

The Services’ Contracting Officers and the S&D Process
        The Services’ contracting personnel had little to no involvement in the S&D
process and did not refer poorly performing contractors to the S&D officials for fact-
based suspensions and debarments for the S&D case files reviewed. We reviewed
87 S&D case files from the Services, and 79 of the case files were judicial-based or fact-
based stemming from other reasons such as accepting gratuities or using public office for
private gain. According to most of the contracting personnel we interviewed at three
Services’ contracting activities, they had little to no involvement with suspending and
debarring Government contractors. Additional training would improve the contracting
officers’ awareness of the S&D process. The contracting personnel stated that they
checked the EPLS multiple times during the award process to determine whether a
contractor was listed as suspended or debarred before awarding a contract. The
contracting officers included checklists in the contract pre-award file to document the
completion of the EPLS check. However, for the contracting personnel we interviewed,
checking the EPLS was typically their only involvement in the S&D process. The
contracting officers stated that they initiated corrective action at the local field level
against poorly performing contractors. Contracting personnel stated that they terminated
the contract for default when the contractor performed poorly. For example, one
contracting specialist stated that he worked directly with the contractors to try and resolve
any performance issues.



                                                 15

An S&D official stated that contracting officers can issue a show cause notice12 to avoid
the need for S&D action. A contracting officer can issue a show cause notice, giving the
contractor the opportunity to present its case as to why the contracting officer should
continue with the contract. Contracting officers are authorized by the FAR to issue a
show cause notice to a contractor before terminating the contract for default. FAR
Paragraph 49.402-3(e)(1), “Procedure for Default,” states:

                 If termination for default appears appropriate, the contracting officer
                 should, if practicable, notify the contractor in writing of the possibility
                 of the termination. This notice shall call the contractor’s attention to
                 the contractual liabilities if the contract is terminated for default, and
                 request the contractor to show cause why the contract should not be
                 terminated for default.

However, in our opinion, when a perpetually poorly performing contractor is not referred
for a potential suspension or debarment by a contracting officer, the contactor may still
receive additional contract awards both within DoD and from other Federal agencies.


DLA Contracting Officers and the S&D Process
        The DLA S&D official issued a higher percentage of S&D actions for the
39 S&D case files reviewed based on poor performance than the Services’ S&D officials.
DLA contracting officers were actively involved with the S&D process to ensure action
                               was taken against poorly performing contractors to protect
   The DLA S&D official        the Government’s interest. We reviewed 39 DLA S&D
       issued a higher         case files, and 24 S&D referrals were fact-based stemming
     percentage of S&D         from poor performance. DLA contracting personnel
     actions . . . than the    communicated with their fraud counsel to refer potential
  Services’ S&D officials.     fact-based suspensions and debarments for poorly
  DLA contracting officers     performing contractors. DLA contracting personnel
   were actively involved      searched the EPLS before awarding contracts to ensure
  with the S&D process to      that potential contractors were not suspended or debarred.
  ensure action was taken      In addition, DLA Land and Maritime13 personnel created
        against poorly         the Counterfeit Material and Unauthorized Product
   performing contractors      Substitution Team consisting of investigators, quality
        to protect the         assurance personnel, legal personnel, laboratory
   Government’s interest.      technicians, and contracting personnel. If a contracting
                               officer had problems with a contractor performing poorly
or suspected fraud, the contracting officer discussed the situation with the team to decide
whether the case should be referred to DLA Headquarters. Similarly, DLA Aviation
personnel stated that they used their fraud counsel and Fraud Waste and Abuse Office to
address poor performance and fraud issues.

12
   The show cause notice advises the contractor of the consequences of a termination and asks the 

contractor to "show cause" why the contract should not be terminated. 

13
   During the audit, DLA renamed its supply centers. Defense Supply Center Columbus is now referred to 

as DLA Land and Maritime. The Defense Supply Center Richmond is now referred to as DLA Aviation.



                                                    16

Improving the S&D Process
       The Services’ S&D officials did not issue as many S&D actions based on poor
performance as the DLA S&D official. The Services’ contracting personnel had little to
no involvement with referring poorly performing contractors for suspension and
debarment. If a suspension or debarment is not issued and a poorly performing
contractor is not subsequently listed in the EPLS, Federal contracting officers do not
know that poorly performing contractors are doing business with DoD, and the
contractors may obtain additional contract awards. DoD officials should form a working
group to review the S&D process to improve the process for referring poorly performing
contractors for potential suspensions or debarments. In addition, DoD officials should
develop a training program to inform contracting personnel about the S&D processes.

Defense Procurement and Acquisition Policy Personnel Provide
Training to Increase S&D Awareness
        Defense Procurement and Acquisition Policy personnel held a training conference
in March 2011 and held a second training conference in May 2011, which included
information on the S&D process. According to Defense Procurement and Acquisition
Policy personnel, the conference in March 2011 included demonstrations on using the
Contractor Performance Assessment Reporting System, the Past Performance
Information Retrieval System, and the Federal Awardee Performance and Integrity
Information System. Providing information on these systems will help ensure that
quality information is available for contracting personnel to determine contractor
responsibility. In addition, the conference held in May 2011 provided information on
contractor past performance and the S&D process for contracting personnel.

The Services’ and DLA Contracting Officers Checked the
EPLS Before Awarding Contracts
The Services’ and DLA contracting personnel we interviewed used the EPLS during the
pre-award process to determine whether the contractors were suspended or debarred
before awarding a contract. FAR 9.405, “Effect of Listing,” requires contracting officers
to review the EPLS after the opening of bids or receipt of any proposals. The Services’
and DLA contracting personnel stated that they checked the EPLS during the award
process to determine whether a contractor was listed as suspended or debarred. In
addition, contracting officers from the Services used checklists to document the
completion of the EPLS check. According to the Service contracting personnel
interviewed, they included a checklist in the contract pre-award file to document the
completion of the EPLS check.




                                           17

Contracting Officers Awarded Contracts to Suspended
or Debarred Contractors
The Services’ and DLA contracting officers awarded 17 contract actions, valued at about
$600,000, to 8 suspended or debarred contractors out of 409 S&D contractors, affiliates,
and imputed parties reviewed, after they were listed in the EPLS. Although the
contracting personnel from the Services and DLA checked the EPLS before awarding
contracts, occasionally their searches yielded no results in the EPLS for the contractors.
GSA personnel stated that they plan to improve the EPLS, which may address some of
the issues.

Suspended or Debarred Contractors Still Received Contract
Awards
        The Services’ and DLA contracting officers awarded 17 contract actions,14 valued
at about $600,000, to 8 suspended or debarred contractors that were entered into the
EPLS. Specifically, Navy contracting personnel from Naval Sea Systems Command
Headquarters exercised two options on a contract, valued at $449,352, after the contractor
                                      was placed on the EPLS. Also, Air Force
       The Services and DLA
                                      contracting personnel issued two modifications,
    contracting officers awarded
                                      valued at $86,740, authorizing additional work
   17 contract actions, valued at
                                      under a new agreement with a contractor after the
         about $600,000, to
                                      contractor was placed on the EPLS. In addition,
      8 suspended or debarred
                                      contracting personnel from the Army, Navy, and
   contractors that were entered
                                      DLA issued 13 purchase order contract actions,
            into the EPLS.
                                      valued at $81,068.75, to contractors after they were
entered into the EPLS as suspended or debarred. Army contracting personnel issued two
of the purchase orders to contractors listed in the EPLS; Navy contracting personnel
issued five purchase orders to contractors listed in EPLS; and DLA contracting personnel
issued six.

We obtained the 17 contract actions by searching the Federal Procurement Data System-
Next Generation (FPDS-NG)15 to determine whether the contractors, affiliates, and
imputed parties from the Services’ and DLA S&D contractor case files had received any
contract awards after being entered into the EPLS.

According to the FAR 9.405-1:

                 For contractors debarred, suspended, or proposed for debarment, unless
                 the agency head makes a written determination of the compelling
                 reason for doing so, ordering activities shall not—

14
   The Army and DLA awarded 2 of the 17 contract actions, valued at $9,234, 2 days after the contractor
was entered into the EPLS.
15
   FPDS-NG is an automated system used to report on Federal procurement spending. We searched the
FPDS-NG for all of the contractors and affiliates to determine whether the contractors received
Government contracts while listed in the EPLS and to compare contract award dates to action dates in the
EPLS. See Appendix A for further information.


                                                   18

                   (1) Place orders	 exceeding the guaranteed minimum under
                       indefinite quantity contracts;
                   (2) Place order under optional	 use Federal Supply Schedule
                       contracts, blanket purchase agreements, or basic ordering
                       agreements; or
                   (3) Add new work, exercise options, or otherwise extend the
                       duration of current contracts or orders.

Our point of contact at DLA Land and Maritime stated that one of the purchase orders
was created to meet contract requirements, and that the other purchase order was a
mistake on the part of the buyer. The buyer made the purchase order without addressing
the fact that the awardee was suspended or debarred. An acquisition analyst and subject
matter expert on the S&D process discussed the incident with the buyer and the buyer’s
supervisor. DoD officials should provide training to contracting personnel from the
contracting activities listed in Appendix B, Table 1, to ensure that the EPLS is properly
checked before awarding contracts. See Appendix B, Table B-1, for a list of suspended
and debarred contractors that the Navy, Air Force, and DLA awarded contract actions to
after the contractors were listed in the EPLS. In addition to actions awarded within DoD,
other Federal agencies issued eight contract actions, valued at $80,827, to contractors
listed in the EPLS as suspended or debarred by the Services or DLA. See Appendix B,
Table B-2, for a list of the suspended and debarred contractors to whom other Federal
agencies awarded contract actions after the contractors were listed in the EPLS.

Problems Encountered When Checking the EPLS
        Occasionally, contracting officers received no results from EPLS searches
because of typographical and user input errors. According to the Services’ and DLA
contracting personnel, they are responsible for checking the EPLS for suspended or
debarred contractors. If contracting personnel do not enter the contractor name in the
search field exactly, including punctuation, then the search may not yield results for that
contractor. For example, we searched the EPLS for one of the suspended and debarred
contractors and found them listed in the EPLS. However, when Navy contracting
personnel searched the EPLS, their search yielded no results for the same contractor. If
the S&D personnel who create the contractor entry in the EPLS do not enter the
contractor’s name properly, it may cause problems for system users when they search the
EPLS. The contracting personnel may search the EPLS using the contractor’s DUNS
number, but not all EPLS entries include the DUNS number. Therefore, the Services’
and DLA contracting personnel were checking the EPLS, but the contracting officers
may not be identifying whether the contractors are suspended or debarred.

GSA Changes to the EPLS
        The EPLS currently contains entries without DUNS numbers and street addresses,
making searches for individuals or contractors difficult. GSA is responsible for
maintaining and managing the EPLS and for providing new users access to enter data into
the EPLS. GSA personnel stated that they are in the process of updating the EPLS to
ensure that all individuals and contractors are entered into the EPLS with a DUNS
number and to standardize classifications across Government systems. Updating the
EPLS to require a DUNS number and standardizing classifications should help system


                                             19

users searching the EPLS. According to GSA personnel, International Business
Machines is designing a system called Architectural and Operation Contract Support with
the goal of integrating Government systems related to contract awards. GSA personnel
stated that this system is scheduled to be put in place in 2012.

Recommendations, Management Comments, and Our
Response
B. We recommend that the Director of Defense Procurement and Acquisition
Policy:

      1. Develop a working group to review and improve the suspension and
debarment process for referring poorly performing contractors for potential
suspensions or debarments.

Defense Procurement and Acquisition Policy Comments
The Director, Defense Procurement and Acquisition Policy, agreed and stated that a
working group composed of contracting personnel from the Services, DLA, and other
Defense agencies will review the suspension and debarment process. He also stated that
the working group will investigate the current procedures for referring poorly performing
contractors for suspensions and debarments and will recommend best practices to
improve the procedures. The estimated date of completion is February 2012.

Our Response
The comments of the Director, Defense Procurement and Acquisition Policy, are
responsive, and no further comments are required.

      2. Develop a training program to inform contracting personnel of the
suspension and debarment program and the process for referring poorly
performing contractors.

Defense Procurement and Acquisition Policy Comments
The Director, Defense Procurement and Acquisition Policy, agreed and stated that when
the working group established in response to Recommendation B.1 approves the
recommendations, a training program will be developed and implemented through a
Defense Acquisition University course or by the Service or agency. The estimated date
of completion is May 2012.

Our Response
The comments of the Director, Defense Procurement and Acquisition Policy, are
responsive, and no further comments are required.




                                           20

       3. Conduct training for contracting personnel on checking the Excluded
Parties List System before awarding contracts.

Defense Procurement and Acquisition Policy Comments
The Director, Defense Procurement and Acquisition Policy, agreed and stated that
contracting personnel are trained to check the Excluded Parties List System but must be
reminded to check it again immediately before signing the award document. He also
stated that training for contracting personnel on checking the Excluded Parties List
System will be included in a Defense Acquisition University course. In addition, he
stated that he will issue a memorandum to the acquisition community reminding them to
check the Excluded Parties List System immediately before award. The estimated date of
completion is May 2012.

Our Response
The comments of the Director, Defense Procurement and Acquisition Policy, are
responsive, and no further comments are required.




                                          21

Appendix A. Scope and Methodology
We conducted this performance audit from March 2010 through May 2011, in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable reason for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

The DoD IG has not performed an audit on S&D since 1993, and that audit only focused
on S&D reporting procedures for subcontractors. The Department of Homeland Security
IG, Department of Transportation IG, and the U.S. Agency for International
Development IG recently released reports on S&D that discussed problems with their
execution of the S&D Process.

Our scope was limited to S&D cases in which the notice of suspension, debarment, or
proposed debarment was dated between FY 2007 and FY 2009. We expanded our scope
to review the S&D process for the Services and DLA to determine whether contracting
officers referred poorly performing contractors to be suspended and debarred, whether
contracting officers are checking the EPLS before making contract awards, and to
determine whether contractors receive contract awards after being listed on the EPLS.

When we announced our objectives, we planned to determine the elapsed time between
an S&D official receiving a referral and the S&D official making a decision on the case.
However, we were unable to establish a consistent start date to document the entire S&D
process for the Services and DLA. We were able to determine how long it took for the
S&D officials to make a decision once they received an S&D case file for the Army and
Navy, but the documentation used to determine start dates varied due to differences in
their S&D processes. We were unable to document this time frame for the Air Force
because the Air Force’s S&D process did not require documentation of an S&D case file
being submitted to the S&D official. We were also unable to document this time frame
for DLA because DLA personnel did not maintain a tracking system of an S&D case file
being submitted to the S&D official. However, we were able to determine how long it
took the DLA S&D official to make a decision once the PLFA16 sent a recommendation
for suspension, debarment, or proposed debarment of a contractor.

Universe and Sample Information
We selected a nonstatistical sample of S&D cases from the Services and DLA in which
the notice of suspension, debarment, or proposed debarment was dated between FY 2007
and FY 2009 from the hard copy files the Services’ and DLA S&D personnel provided.
To obtain the total number of contractors, affiliates, and imputed parties in the EPLS, we

16
  Primary Level Field Activities include DLA Land and Maritime in Columbus, Ohio; DLA Aviation in
Richmond, Virginia; DLA Troop Support in Philadelphia, Pennsylvania; DLA Energy at Fort Belvoir,
Virginia; DLA Distribution in New Cumberland, Pennsylvania; and DLA Disposition Services in Battle
Creek, Michigan.


                                                 22

    searched the EPLS for all S&D actions listed for each of the Services and DLA between
    October 1, 2006 and September 30, 2009. See the table for the total number of S&D
    contractor case files, affiliates, and imputed parties we reviewed, the total number of
    fact-based cases, fact-based cases because of contractor poor performance, and judicial-
    based cases as well as the total number of S&D contractors, affiliates, and imputed
    parties listed in the EPLS as of March 2, 2010.

                    S&D Case Files From FY 2007 Through FY 2009 Reviewed
                                                                                 Number of
                                                     Number of                                Number
                                                                    Number       Fact-Based
                     Number of                      Contractors                                  of
                                      Number of                      of Fact-      Cases
  DoD                Contractor                     listed in the                             Judicial-
                                      Contractors                     Based      Because of
Component            Case Files                     EPLS as of                                 Based
                                      Reviewed*                       Cases         Poor
                     Reviewed                         March 2,                                 Cases
                                                                    Reviewed    Performance
                                                        2010*                                 Reviewed
                                                                                  Reviewed
Army                     27                72          460             4              2          23
Navy                      32                64          207             6             2          26
Air Force                28                137         334             12             4          16
DLA                       39               136         345             30            24          9
Total                    126               409         1346            52            32          74
*
    Includes affiliates and imputed parties.

    We determined how long it took for the S&D officials to make a decision once they
    received an S&D case for the Army and Navy. The documentation we used to determine
    start dates varied due to differences in their S&D processes. We determined how long it
    took the DLA S&D official to make a decision once the PLFA sent a recommendation of
    suspension, debarment, or proposed debarment of a contractor.

    To determine the start date for when the Army S&D official received the case file, we
    used the date on an unofficial tracking sheet that logs the date the S&D official received
    the file. We determined the elapsed time between the tracking sheet date and the date the
    S&D official made a decision by signing the notice of suspension, debarment, or
    proposed debarment to the contractor.

    To determine the start date for when the Navy S&D official received the case file, we
    used the date on the memorandum for the Navy S&D official. The memorandum for the
    Navy S&D official is prepared by personnel within the AIO and includes a
    recommendation on what action should be taken by the S&D official. We determined the
    elapsed time between the date on the memorandum for the Navy S&D official and the
    date the S&D official made a decision by signing the notice of suspension, debarment, or
    proposed debarment to the contractor.

    To determine the start date for when the PLFA sent a recommendation of suspension, 

    debarment, or proposed debarment of a contractor, we used the date on the 

    recommendation. The recommendation suggests what action should be taken by the 

    S&D official. We determined the elapsed time between the date the PLFA sent the 





                                                     23

recommendation and the date the S&D official made a decision by signing the notice of
suspension, debarment, or proposed debarment to the contractor.

We determined the elapsed time between the S&D official deciding to suspend or debar
the contractor listed in the case file and the contracting personnel adding the contractor to
the EPLS by comparing the date on the suspension, debarment, or proposed debarment
notice sent to the contractor with the creation date listed in EPLS. To obtain the creation
date listed in the EPLS, we searched the EPLS to obtain each contractor, affiliate, or
imputed party EPLS listing. Some of the contractors, affiliates, and imputed parties were
no longer suspended or debarred; therefore, we had to search the EPLS archives section,
which lists all contractors, affiliates, and imputed parties that had once been listed on the
EPLS. We determined whether contractors that were listed in the EPLS as being
suspended or debarred received contracts during that time by checking the FPDS-NG for
the contractor’s name. We searched the FPDS-NG using the names of the contractors,
affiliates, and imputed parties listed in EPLS. We used the search results, which included
contract award dates with an estimated value of $3,000 or more, to compare contract
award dates to action dates in EPLS.

We contacted our initial contracting personnel points of contact from the Services and
DLA to obtain additional contract information for some of the contracts to determine
whether an exception was granted allowing the awarding agency to award to an excluded
contractor and the type of contract action that was made after the EPLS entry date. In
addition, we searched the Electronic Document Access for contract information on these
actions that occurred after the EPLS entry date. We calculated the length of time
between the entry into the EPLS and when the actions were listed in the FPDS-NG.

We identified 36 delivery orders issued on previously awarded contracts. These delivery
orders were placed on the contracts at the time contractors were listed in the EPLS. The
FAR 9.405-1 allows agencies to continue contracts or subcontracts in existence at the
time the contractor was debarred, suspended, or proposed for debarment unless the
agency head directs otherwise. The FAR 9.405-1 also states that ordering activities shall
not place orders exceeding the guaranteed minimum. The audit team was unable to
determine whether these 36 contract actions exceeded the guaranteed minimum on the
contracts without auditing each of the individual contracts to determine if the guaranteed
minimum was previously met. Auditing the individual contracts was outside the scope of
the audit; therefore we excluded the 36 contract actions.

Review of Documentation and Interviews
We evaluated documentation against applicable criteria including:
  •	 FAR Subpart 9.4, “Debarment, Suspension, and Ineligibility”;
  •	 FAR Subpart 49.4, “Termination for Default”;
  •	 Defense Federal Acquisition Regulation Supplement Part 209, “Contractor
      Qualifications”;
  •	 DoD Instruction 7050.05, “Coordination of Remedies for Fraud and Corruptions
      Related to Procurement Activities,” June 4, 2008;



                                             24

   •	 Executive Order 12549, 51 Fed. Reg. 6370 (1986) “Debarment and Suspension,”
      February 18, 1986;
   •	 Executive Order 12689, 3 CFR Comp., 235 (1989) “Debarment and Suspension,”
      August 16, 1989;
   •	 Federal Register, volume 70, Number 168, “Rules and Regulations,” 

      August 31, 2005;

   •	 Federal Register, volume 68, Number 228, “Rules and Regulations,” 

      November 26, 2003; 

   •	 Army Federal Acquisition Regulation Supplement Subpart 5109.4, “Debarment,
      Suspension, and Ineligibility”;
   •	 Navy Marine Corps Acquisition Regulation Supplement Subpart 5209.4, 

      “Debarment, Suspension, and Ineligibility”; 

   •	 Air Force Federal Acquisition Regulation Supplement Subpart 5309.4, 

      “Debarment, Suspension, and Ineligibility”; 

   •	 Defense Logistics Acquisition Directive Subpart 9.4, “Debarment, Suspension,
      and Ineligibility”; and
   •	 DLA Business Integrity Handbook, February 2002.

We interviewed S&D personnel to discuss the S&D process and to obtain information
about suspensions and debarments at the:
   •	 Army Procurement Fraud Branch Headquarters, Arlington, Virginia;
   •	 The AIO, Navy Yard, Washington, D.C.;
   •	 Deputy General Counsel (Contractor Responsibility) Air Force, Arlington,
       Virginia; and
   •	 DLA Office of the General Counsel, DLA Headquarters, Fort Belvoir, Virginia.

We visited the following contracting activities to discuss the S&D process and the
process for checking EPLS before awarding contracts. We also obtained information on
suspensions and debarments at the:
   •	 Rock Island Arsenal, Illinois, where we met with an Army procurement fraud
       advisor, contracting specialists, and contracting officers;
   •	 Fleet and Industrial Supply Center, Norfolk, Virginia, where we met with Navy
       purchasing agents and contracting specialists;
   •	 Air Force District Washington, Bolling Air Force Base, Washington D.C., where
       we met with Air Force contract specialists and contracting officers;
   •	 DLA Land and Maritime, Columbus, Ohio, where we met with the fraud counsel,
       an engineer, contract administrators, contract specialists, and pre-award contract
       specialists; and
   •	 DLA Aviation, Richmond, Virginia, where we met with the fraud counsel,
       contracting officers, fraud monitor, and the fraud supervisor.

In addition, we met with GSA personnel responsible for maintaining the EPLS, in
Arlington, Virginia, to discuss the plans for future improvements to the EPLS.




                                           25

Use of Computer-Processed Data
We relied on computer-processed data from the EPLS to determine the number of S&D
actions for FYs 2007 through 2009. To assess the accuracy of computer-processed data,
we verified the EPLS data against official records at the contracting activities and S&D
offices we visited. We determined that data obtained through the EPLS were sufficiently
reliable to accomplish our audit objectives. We also used the EPLS to determine the
dates the contractors, affiliates, and imputed parties were entered in the EPLS. There was
no way to determine the reliability of these dates because no such date was listed in the
S&D case file documents we reviewed. To assess the accuracy of computer-processed
data, we verified the EPLS data against official records at the contracting activities and
S&D offices we visited. We also used the FPDS-NG to determine whether any
contractors, affiliates, or imputed parties received any contracts after being suspended or
debarred. We used the Electronic Document Access to obtain contract information on the
contract actions to determine the reason of the contract award. Consequently, we
determined that the data were sufficiently reliable for the purposes of our audit.

Prior Coverage
During the last 5 years, the Government Accountability Office, the Department of
Homeland Security IG, the Department of Transportation IG, the United States Agency
for International Development IG, and the GSA IG have issued five reports discussing
S&D. Unrestricted Government Accountability Office reports can be accessed over the
Internet at http://www.gao.gov. Unrestricted Department of Homeland Security IG
reports can be accessed over the Internet at http://www.dhs.gov. Unrestricted
Department of Transportation IG reports can be accessed over the Internet at
http://www.dot.gov. Unrestricted United States Administration for International
Development IG reports can be accessed over the Internet at http://www.usaid.gov.
Unrestricted GSA IG reports can be accessed over the Internet at http://www.gsaig.gov.

Government Accountability Office
Government Accountability Office Report No. GAO-09-174, “Excluded Parties List
System Suspended and Debarred Businesses and Individuals Improperly Receive Federal
Funds,” February 25, 2009

Department of Homeland Security IG
Department of Homeland Security IG Report No. OIG-10-50, “DHS’ Use of Suspension
and Debarment Actions for Poorly Performing Contractors,” February 2010

Department of Transportation IG
Department Of Transportation Report No. ZA-2010-034, “DOT’S Suspension and
Debarment Program Does Not Safeguard Against Awards to Improper Parties,”
January 7, 2010




                                            26

United States Agency for International Development IG
United States Agency for International Development IG Report No. 9-000-10-001-P,
“Audit of USAID’S Process for Suspension and Debarment,” October 1, 2009

GSA IG
General Services Administration IG Report No. A070105/O/A/F08004, “Review of
GSA’s Suspension and Debarment Program,” December 20, 2007




                                         27

Appendix B. Suspended or Debarred Contractors That Received
Awards
Based on our review of the 409 contractors, affiliates, and imputed parties from the Services and DLA, the following tables show the
contractors that received contract action awards after being listed in the EPLS as suspended or debarred. Table B-1 shows the
contractors, affiliates, and imputed parties that the Services and DLA awarded contract actions to after they were listed in the EPLS as
suspended or debarred. The Army and DLA awarded two contract actions 2 days after the contractors were entered into the EPLS.
For three contract actions, totaling $60,614.61, the Army and 2 other Federal agencies awarded these contract actions the same day the
contractor was entered into the EPLS, we excluded these examples from the tables. Table B-2 shows the contractors, affiliates, and
imputed parties that other Federal agencies awarded contract actions to after the contractors were listed in the EPLS as suspended or
debarred.

Table B-1. Contract Actions Awarded to Suspended and Debarred Contractors by the Services and DLA
                                                                                                                               FPDS
                                                         FPDS
                                      EPLS Entry                                                                               Action
       Contractor Name                                  Contract          Contract Number        Contracting Activity
                                         Date                                                                                  Dollar
                                                       Action Date
                                                                                                                              Amount
  AKS Associates International          2/4/2008        2/6/2008          SPM5AB08M0129         DLA Troop Support            $4,089.00
  AKS Associates International          2/4/2008        2/8/2008          SPM4A108M1018             DLA Aviation             $15,860.00
  AKS Associates International          2/4/2008        5/15/2008         SPM4A408MVF60             DLA Aviation              $5,490.00
                                                                                              Dept. of the Army W7MX
                                                                                               USPFO ACTIVITY CA
       ALLSTEEL, INC.                   9/4/2009        9/6/2009          W912LA09P0163                 ARNG                 $5,145.00
                                                                                                 Dept. of Air Force:
Bilfinger Berger Hochbau GmbH          3/26/2009        6/30/2009         FA561304DR005       USAFE CONS DA LGC              $50,398.31
                                                                                                 Dept. of Air Force:
Bilfinger Berger Hochbau GmbH          3/26/2009        7/2/2009           FA561304DR005      USAFE CONS DA LGC              $36,342.00
           GSC USA                     7/27/2009        8/26/2009         SPM7MC09M4139       DLA Land and Maritime           $2,835.00
          Hilda Parker                 11/23/2007       12/1/2007         SPM4A408MV572             DLA Aviation             $22,016.00




                                                                    28

Appendix B. Suspended or Debarred Contractors That Received
Awards (cont’d)
Table B-1. Actions Awarded to Suspended and Debarred Contractors by the Services and DLA
                                                                                                                    FPDS
                                                    FPDS
                                     EPLS Entry                                                                    Action
       Contractor Name                             Contract          Contract Number    Contracting Activity
                                        Date                                                                        Dollar
                                                  Action Date
                                                                                                                   Amount
          Hilda Parker               11/23/2007    2/2/2008          SPM5A008M0331       DLA Troop Support        $3,097.00
                                                                                       Department of the Navy,
Oxnard Precision Fabrication, Inc.   11/21/2007    6/25/2008         N6339408P0408      Port Hueneme Division     $7,743.44
                                                                                       Department of the Navy,
Oxnard Precision Fabrication, Inc.   11/21/2007    8/27/2008         N6339408P0550      Port Hueneme Division     $3,871.72
                                                                                       Department of the Navy,
Oxnard Precision Fabrication, Inc.   11/21/2007    9/15/2008         N6339408P0624      Port Hueneme Division     $355.98
                                                                                       Department of the Navy,
Oxnard Precision Fabrication, Inc.   11/21/2007    5/10/2009         N6339409P0305      Port Hueneme Division     $178.23
                                                                                       Department of the Navy,
Oxnard Precision Fabrication, Inc.   11/21/2007    7/13/2009         N6339409P0456      Port Hueneme Division     $3,871.72
                                                                                       Department of the Navy,
Sumrall Family Enterprises, Inc.      2/25/2009    4/6/2009          N0002409C4117     NAVSEA Headquarters       $149,424.00
                                                                                       Department of the Navy,
Sumrall Family Enterprises, Inc.      2/25/2009    9/24/2009         N0002409C4117     NAVSEA Headquarters       $299,928.00
                                                                                       Department of the Army,
                                                                                       BAGRAM REG CONTR
 United Electronics Corporation       8/27/2009    8/31/2009         W91B4N09P2423            CENTER              $6,515.66




                                                               29

Appendix B. Suspended or Debarred Contractors That Received
Awards (cont’d)
Table B-2. Contract Actions Awarded to Suspended or Debarred Contractors by Other Federal Agencies
                                                                                                                 FPDS
                                                   FPDS
                                  EPLS Entry                                                                     Action
         Contractor Name                          Contract        Contract Number    Contracting Activity
                                     Date                                                                        Dollar
                                                 Action Date
                                                                                                                Amount
Advanced Office Concepts, LLC     9/4/2009      12/3/2009         VA341C0030        Department of Veterans     $25,183.34
                                                                                    Affairs
Bay-Pointe Technology, Ltd.       5/26/2009     5/28/2009         DTFACT09P00130    Dept. of Transportation/   $26,621.00
                                                                                    Federal Aviation
                                                                                    Administration
David Garza                       11/21/2007    5/28/2010         INF80181AM381     U.S. Fish and Wildlife     $4,000.00
                                                                                    Service
David Garza                       11/21/2007    6/9/2010          INF80181AM403     U.S. Fish and Wildlife     $2,142.00
                                                                                    Service
Nova International, Inc.          9/4/2009      9/15/2009         SGA10009M0813     Department of State        $3,451.14
Nova International, Inc.          9/4/2009      9/22/2009         SCE20009M2669     Department of State        $6,124.00
Nova International, Inc.          9/4/2009      9/23/2009         SGA10009M0946     Department of State        $6.505.80
Nova International, Inc.          9/4/2009      9/28/2009         SGE50009M0875     Department of State        $6,800.00




                                                            30

Defense Procurement and Acquisition Policy Comments 





                               31

32

